                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington. D.C. 20230




December 20, 20 I 3

MEMORANDUM FOR:              Lawrence E. Strickling
                             Assistant Secretary for Communications and Information
                             National T elecommunications and Information Administration


FROM:                        AnnC.Eilers      ~~ r~
                             Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                     Closeout Procedures for the Broadband Technology
                             Opportunities Program Need Strengthening

This is our final memorandum on the results of our audit to assess the effectiveness of closeout
administration for the National Telecommunications and Information Administration's (NT IA's)
Broadband Technology Opportunities Program (BTOP). Closeout consists of the steps taken
by the award recipient and the grants office to ensure that project activity is complete and the
award recipient has met all the requirements under applicable laws, regulations, Office of
Management and Budget (OMB) circulars, and the award terms and conditions.

W e received separate responses from NTIA, NOAA, and NIST to our draft memorandum,
which acknowledged our findings and recommendations and described the steps they are taking
to address them. Corrective actions have been taken during the aud it, and the bureaus have
indicated that additional action will be taken to address the findings contained within the
report. We have summarized the responses within the report and included the formal
responses from NTIA, NOAA, and NIST as Appendix C. The final report will be posted on the
Office of Inspector General's website pursuant to section 8M of the Inspector G e neral Act of
1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of th is memorandum. The plan shou ld outline the actions
you have taken or propose to take to address each recommendation.

Background

The American Recovery and Reinvestment Act of 2009 provided $4.7 billion for NTIA to
establish BTOP. The agency awarded more than 230 BTOP grants totaling $3.9 billion to
deploy broadband Comprehensive Community Infrastructure (CCI), create and expand Public
Computer Centers (PCC), and promote the Sustainable Broadband Adoption (SBA) services.
The National Institute of Standards and Technology (N IST) administers the PCC and SBA
grants. The National Oceanic and Atmospheric Administration (NOAA) administers the CCI
grants. All BTOP grants were awarded before September 30, 20 I 0, and each project was
required to be completed within three years after the award date. In support of implementation
of the awards, grant recipients have disbursed 78 percent of BTOP funds as of June 30, 2013.
Many BTOP awards are therefore nearing completion and entering the closeout phase.
Appendix B shows when grants were to be completed. A footnote to table B-1 provides
updated information on the status of the awards as of September 16, 2013. Many grantees have
requested and been approved extensions to complete projects, with some extending
completion into 2015.

As of September 16, 2013, NTIA reported that 69 CCI grant recipients and 44 PCC/SBA
recipients had requested to extend their performance periods. Also, NTIA reported that 43
grants representing approximately $1.5 billion will extend beyond September 30, 2013. This
includes 24 grants to be completed October through December 2013, 15 grants to be
completed in 2014, and 4 grants to be completed in 2015.

At the time of our fieldwork (March–May 2013), only 5 of 224 total grants1 had been closed out
under the program. NTIA, along with the grants offices at NIST and NOAA, developed
closeout procedures to ensure that laws, regulations, and award conditions are met. Grant
procedures have been documented in the BTOP Recipient Handbook; the Federal Program Officer
Handbook: Grant Monitoring Procedures for BTOP grants; Standard Operating Procedures 00-
02A, from NIST’s Grants and Agreements Management Division; and Grants Management
Division Alert 2012-02, from NOAA. The three agencies have held webinars to help recipients
understand the grant closeout process. Figure 1 summarizes the closeout process.

Objectives, Findings, and Recommendations

We conducted this audit as part of our continued oversight of NTIA’s BTOP awards. Our
objectives were to evaluate (1) whether policies and procedures were adequate to effectively
administer closeout activities and (2) whether closeout procedures were being followed.
Appendix A contains the objectives, scope, and methodology of this audit.

We found that NTIA, along with the grants offices at NIST and NOAA, encountered challenges
in effectively closing out the first awards. Delays have occurred due to computer system issues
that were not identified until those initial closeouts, time-consuming Uniform Commercial
Code-1 filings (to secure federal interest in property), audits of for-profit companies that must
be completed before closeout, and extension requests. For example, as of June 14, 2013, only
one of the three CCI grants that should have been closed out had been completed. NTIA,
NOAA, and NIST continue to take corrective steps to expedite the closeout process.

NTIA described several efforts it had initiated to ensure effective grant closeout. These include
forming a team to address closeout issues as they arise; updating closeout procedures in the
Federal Program Officer Handbook: Grant Monitoring Procedures for BTOP grants to facilitate
consistent practice among program officers; and developing and conducting training sessions for
staff and grant recipients on closeout documentation and procedures. In addition, NTIA, along
with the grants offices for NOAA and NIST, have developed closeout checklists and fact sheets
for grant recipients. These are available on the BroadbandUSA website.



1
    Six grants were terminated for convenience and two grants were terminated by NTIA.


                                                        2
Although NTIA and the grants offices have established and continue to refine an initial closeout
process, we identified specific weaknesses that should be addressed to ensure more effective
closeout of BTOP awards.

                       Figure 1. BTOP Grant Project Closeout Timeline




                                      a




Source: NTIA training presentation
Closeout training was provided to recipients on July 12, July 18, and December 13, 2012. Training was provided to
NTIA, NIST, and NOAA staff on December 15, 2011, February 13, 2013, and March 26, 2013.
a
  PAM—post-award monitoring tool; FPO—federal program officer; AAR—award action request.

  I.	   Standard Operating Procedures at NIST and Closeout Procedures at NOAA
        Were Incomplete

    NIST’s standard operating procedures (SOPs) and NOAA’s closeout procedures do not
    provide adequate instructions to grants personnel to fully and successfully guide the process
    of closing out BTOP grants. As a result, grants personnel could potentially close a grant
    without obtaining and reviewing all the required closeout documentation, determining that
    all award activity was completed and laws and regulations were complied with, or ensuring
    that the federal government’s interest in assets was protected. Closeout is the last
    opportunity for grants personnel to flag and follow up on fraud, waste, and abuse indicators
    in grant spending. Without comprehensive procedures, that opportunity could be missed.
    See table 1 for a list of closeout requirements and whether grants office procedures clearly
    address the requirements.




                                                        3
    Table 1. Closeout Requirements Addressed in NIST’s and NOAA’s Procedures

                             Closeout Requirement                          NOAA NIST
     Department of Commerce Grants and Cooperative Agreements Manual, Chapter 12
                     15 CFRa Parts 14 and 24/OMB Circulars A-102 and A-110
 Notifying the recipient when the award is close to completion.              Y   Y
 Recipient submits all financial, performance, and other reports as required by terms and conditions of
 award within 90 days after award completion date.
    Final Financial report (SF-425)                                                       Y          Y
    Final Performance report                                                              Y          Y
    Account for any real (SF-429) and personal (SF-428) property acquired with
                                                                                          N          Y
    federal funds or received from the federal government
    Financial Status report (SF-269) and Request for Reimbursement for
                                                                                          N          Y
    construction programs (SF-271) if applicable
    Final Request for Payment (SF-270) if applicable                                      Y          Y
    Invention Disclosure/Patent reports                                                   Y          Y
    Federally-owned Property report, CD-281 (as distinct from property acquired
    with grant funds), for which it is accountable and request disposition                Y          Y
    instructions for property no longer needed
 Unobligated balance of funds on hand returned to government/accounts receivable
                                                                                          Y          N
 for funds not returned
 Government compensation for aggregate supplies with a value greater than $5,000          N          N
 De-obligation of funds within 90 calendar days of receipt after final SF-269
                                                                                          Y          Y
 (Financial Status report)
 Retention of records, 3 years                                                        Y N
      Department of Commerce Grants and Cooperative Agreements Manual, Chapter 17
                                        (Construction Projects)
 Recipient executes a security interest or other statement of federal interest in the
                                                                                      N Y
 property perfected.
 Recipient provides a written statement from a licensed attorney in the jurisdiction
 where the property is located certifying that the federal interest has been          N Y
 protected.
 Recipient may not dispose of, modify the use of, or change the terms of the real
                                                                                          N          Y
 property title without permission and instructions from the grants office.
                                 Notice of Funds Availability 1 and 2
 Audit reports and final performance report                                               N          Y
Source: Department of Commerce Grants and Cooperative Agreements Manual
a
  Code of Federal Regulations.




                                                       4
A.	 Weaknesses with NIST’s standard operating procedures for closeout

   NIST SOPs do not address the process for recovering unspent advances.
   Grant closeout regulations (15 CFR, parts 14, 24) and the Department’s Grants and
   Cooperative Agreements Manual require that unobligated funds be promptly returned to
   the government. At the same time, recipients are allowed to draw down grant funds up
   to 30 days in advance of anticipated expenses. At the end of their awards, grant
   recipients, therefore, could draw down more funds than necessary for expenses.
   Although this did not occur in the four closeouts of NIST-administered awards we
   reviewed, NIST procedures do not address how to recover unused advances before
   closing a grant, making it possible for recipients to keep unused funds.

   NIST SOPs do not include the required record-retention period for
   recipients. BTOP grant recipients are generally required under federal and
   departmental regulations (15 CFR, sections 14.53, 24.42; and the Department’s Grants
   and Cooperative Agreements Manual, March 1, 2013, chapter 12, section D) to retain
   related financial records and supporting documentation for three years from the date
   the final expenditure report was submitted. An appendix to the agency’s SOP provides
   grantees an example of the final closeout letter and a reminder of how long records
   need to be retained. However, that information should be included in the body of the
   SOP to ensure that all grants office personnel know the requirement. The requirement
   for retaining records would ensure that documents are maintained to verify that costs
   are allowable, allocable, and reasonable.

B.	 Weaknesses with NOAA’s procedures for closeouts

   NOAA closeout procedures do not address all required closeout

   documentation. NOAA’s closeout procedures do not address the following

   requirements for documentation:

       	 Real Property Status Report (SF-429)
       	 Tangible Personal Property Report (SF-428)
       	 Financial Status Report (SF-269) and the Outlay Report and Request for
          Reimbursement for Construction Programs (SF-271) for BTOP grants with a
          construction component
   Federal regulations (15 CFR, sections 14.71, 24.50) require grant recipients to submit all
   required closeout reports within 90 days after the completion of the award. Among the
   required documentation, NTIA and the grants offices require grant recipients to submit
   standardized forms 429 and 428 to ensure that real and personal property acquired with
   federal funds are reported and that the government’s interest in the property is
   protected. Those completed forms are essential to making the grants office aware of
   BTOP real or personal property maintained by the grantee. The government is owed
   compensation for the sale or repurposing of any real and personal property obtained
   with federal funds. Standardized forms 269 and 271 ensure that the recipient has
   adequate grant funding to complete construction projects, including administrative costs



                                             5
   for closeout. Because the grant recipient can no longer draw down funds 91 days after
   the end of the grant period, the grants office’s review of SF-269 and SF-271 helps ensure
   that funding is available for the grantee’s remaining project expenses, as well as for
   closeout costs. The Automated Standard Application for Payments (ASAP) account,
   which enables all electronic payments, is locked after the 90-day closeout period and the
   process for reversing suspension of funds could delay closeout.

   NOAA closeout procedures do not address Uniform Commercial Code
   Form 1 (UCC-1) filing requirements and the need for a statement from a
   licensed attorney certifying that the federal interest has been protected for
   construction-related grants. The federal government retains an interest in all real
   and personal property obtained with federal funds. According to the NTIA fact sheet on
   BTOP federal interest documentation requirements, the grant recipient “shall not sell,
   lease, transfer, assign, convey, hypothecate, mortgage, or otherwise convey any interest
   in the BTOP property without prior written approval of the Grants Officer.” The UCC-
   1 filing is made to secure and perfect the federal interest in the property, in accordance
   with the applicable state’s law. The written statement from a licensed attorney certifies
   that the federal interest has been protected as required under the award (the
   Department’s Grants and Cooperative Agreements Manual, chapter 17, paragraph H [2c]).
   NOAA’s closeout procedures did not include the UCC-1 filing requirement or the
   attorney certification requirement. While the one closed Comprehensive Community
   Infrastructure grant administered by the agency did contain a UCC-1 filing, the lack of
   these requirements within the closeout procedures does not provide confidence that
   this action will be taken for future award closeouts. Without the UCC-1 filing
   requirement and attorney certification being addressed in the closeout procedures, the
   grants office cannot verify that the government’s interest has been secured (that is, the
   government will receive the compensation it is due) in the event property is sold.

   NOAA closeout procedures do not address audit report requirements. BTOP
   grant recipients are required by the Notice of Funds Availability to submit an
   organization-wide financial and compliance audit report. More specifically, for-profit
   BTOP grant recipients are required to submit program specific audit results within 90
   days following the expiration of the grant period. Failure to have an audit or submit the
   report could result in BTOP funds being spent on unallowable costs going undetected.

C. Weaknesses with NIST’s and NOAA’s closeout procedures

   Neither NIST’s SOP nor NOAA’s closeout procedures address government
   compensation for aggregate supplies valued at greater than $5,000. Federal
   regulations (15 CFR, sections 14.35, 24.33) require that the government be
   compensated for its share of supplies with an aggregate value of greater than $5,000 if
   those supplies will no longer be used for federal programs. Supplies include equipment
   with a per-unit acquisition cost of less than $5,000, such as computers, routers, or
   other digital hardware (15 CFR, sections 14.2, 24.3). To be comprehensive, the agencies’
   SOP and closeout procedures should include information on government compensation
   for unused supplies. This would ensure that all grants office personnel know of the



                                           6
           requirement, thereby reducing the chance of the government not receiving
           compensation it is due prior to the closure of the award.

II.	   Standard Operating and Closeout Procedures Were Not Always Followed and
       Grant Files Were Incomplete

       In addition to reviewing grant closeout policies and procedures, we reviewed the five grants
       that had closed and the six grants nearest completion of the closeout process. Table 2
       shows the status of the 11 grants reviewed:

                  Table 2. Grants Reviewed for Compliance with Regulations
                                                                                           Compliant
                                                                   Original
                                                 Grant End                                   with
   Recipient                          Typea                         Grant        Status
                                                   Date                                    Closeout
                                                                  Amount ($)
                                                                                            Process
   North Georgia Network
                                       CCI        11/30/2012        33,490,537   Expired      N
   Cooperative, Inc.
   South Dakota Network, LLC           CCI        11/30/2012        20,572,242   Expired      N
   Silver Star Telephone
                                       CCI        12/31/2012         5,063,623   Expired      Y
   Company, Inc.
   Hardy Telecommunications,
                                       CCI        12/31/2012         3,201,760   Expired      N
   Inc.
   Georgia Partnership for
                                       SBA        09/30/2012         2,462,975   Closed       N
   Telehealth, Inc.
   The Inland Northwest
   Community Access Network            PCC        11/30/2012         1,283,641   Expired      N
   (TINCAN)
   Arizona State Library Archives
                                       PCC        11/30/2012         1,278,528   Expired      N
   and Public Records
   Michigan State University           PCC        01/31/2012           895,482   Closed       N
   New York Department of
                                       PCC        03/31/2012           536,737   Closed       N
   Labor
   City of Williamstown (KY)           CCI        06/30/2012           535,308   Closed       N
   Santa Fe (NM) Civic Housing
                                       PCC        06/30/2012           176,400   Closed       N
   Authority
   Source: NTIA Broadband Programs Status and OIG quarterly drawdown reports
   a
     NOAA administers CCI grants and NIST administers PCC and SBA grants.

   We reviewed the closed grants to determine whether appropriate steps were taken to
   complete grant closeout, whether required closeout documentation was included in the grant
   file, and whether unspent grant funds needed to be returned to the government. We did not
   find unspent grant funds in the grant recipient’s ASAP accounts. We selected a sample of six
   expired (grant award period has ended) grants in the closeout phase to determine whether the
   required closeout documentation had been submitted on time.




                                                        7
We found:

      	 Nine of the 11 (82 percent) reviewed grants exceeded the 90-day document
         submission period without receiving an approved extension of that period.
         Federal requirements allow grant recipients 90 days from the award end date to submit
         all required closeout documentation (15 CFR, sections 14.71(a) and 24.50(b)).
         Extensions must be approved and document the reason for the delay. The lack of
         documented approval for an extension in nine instances demonstrates that the grants
         office should be more involved in ensuring recipient adherence to federal requirements
         in the closeout process. This raises the concern that other federal requirements may
         not be met.

      	 Letters notifying recipients of the required closeout documentation were
         not sent out 30 days before the award end date. NOAA sends neither a 30-day
         notification (a reminder notifying the recipient that their grant period is about to expire)
         nor a list of required documentation necessary to close the award. NOAA stated that,
         instead of sending out the notification package, it relies on the federal program officer’s
         notifications and system-generated2 notifications sent to the recipients after the end of
         their award period. These notifications inform the recipient of due dates for the Federal
         Financial report (SF-425) and Performance Progress report, which are among the
         documents that BTOP grant recipients are required to submit before closeout. The
         system-generated notifications do not address any other required documentation. The
         30-day notice facilitates the timely closing of BTOP grants by providing a comprehensive
         list of required documents. Omitting the 30-day notice may delay grant closeout.

          The “Closeout Process” instructions by NIST’s Grants and Agreements Management
          Division state that “30 days prior to the end date of the grant/cooperative agreement,
          the Grants Specialist will send out the 90 days closeout letter to the recipients.” This
          letter provides recipients advance notice of the documentation required for a timely
          closeout. Closeout letters were sent after the award end date for five of the six NIST-
          administered (PCC and SBA) grants reviewed and date-stamped 33 to 78 days late. For
          example, the 90-day closeout letter to Michigan State University was sent 48 days after
          the end of the award, making it 78 days late. The date was not stamped on one closeout
          letter, so we could not determine when it was sent. NIST explained that it was still
          working on the closeout process when the awards were expiring.

      	 Some grant files did not contain all the required documentation, or the
         documentation was added after the grant was closed. NIST and NOAA list
         documents that must be obtained to complete and close a grant. Among the required
         items are the Real Property Status report and a list of patents obtained as a result of the
         BTOP project. We did not find any issues with the PCC and SBA grants reviewed
         regarding the Real Property report or the Patent report; however, two of five CCI
         recipients reviewed (South Dakota Network and Hardy Telecommunications) had not
         filed the Real Property report or the Patent report, which should have been filed by

2
    Grants Online is the grants management system used by NOAA.


                                                      8
            March 31, 2013. When the grant for the City of Williamstown, Kentucky, was closed,
            neither the Real Property nor Patent reports had been received or reviewed, which
            could leave the federal government share unprotected and its compensation lost in the
            event the property is sold. Grants office personnel stated that some recipients did not
            acquire real property or patents during their grant periods. To strengthen their
            processes, both NOAA and NIST now require that these documents be submitted for
            all grants. For grants that have not acquired real property or patents, the forms will
            verify that fact.

III.	   Inconsistent Approach to Grant Closeouts among NTIA’s Federal
        Program Officers

        From our interviews with four federal program officers, we found that one of the officers
        did not provide or refer the grant recipient to the closeout packet specifying the document
        requirements and closeout process. The section on grant monitoring in Federal Program
        Officer Handbook: Grant Monitoring Procedures states that the “Program Office sends closeout
        Guidance Documentation, including a closeout reminder letter and recipient checklist, to
        recipient 90 days prior to the scheduled project end date.” The notification and checklist
        assure timely document submission and grant closeout. If the information is not provided to
        the grant recipient, the closeout may be delayed due to incomplete documentation.

        We discussed our findings with grants officials at NIST and NOAA. We acknowledge that
        during our review NTIA, NIST, and NOAA have been working to improve their processes.
        Although SOPs and closeout procedures have not been updated, grants staffs at the
        agencies have begun implementing changes to improve the closeout process.

IV.	    Post-Fieldwork Issue Identified with a Lack of a Single Audit for a
        BTOP Recipient

        Subsequent to completion of fieldwork, NTIA brought to our attention that a grant
        recipient would not be able to complete the required A-1333 audit for 2013, even though it
        had expended the entire $28 million grant award. On November 6, 2013, NTIA notified the
        grant recipient that a final audit was required. In response, the grant recipient told NTIA
        that it would not be able to complete an audit for 2013 as it was closing the business.
        Although grant funds are provided to recipients to cover the cost of audits, the NIST grants
        program officer did not properly monitor the drawdown of funds to ensure that adequate
        funds remained for the final audit.




    3
     OMB Circular A-133 requires that all non-federal entities (that is, states, local governments, and nonprofit
    organizations) expending $500,000 or more a year in federal awards conduct an audit for that year.


                                                             9
Recommendations

We recommend that the Assistant Secretary for Communications and Information of the
National Telecommunications and Information Administration direct

   1.	 NIST and NOAA grants offices to
       a.	 update their closeout procedures to include all required documentation to be
           obtained and reviewed before closing the grant,
       b.	 require that all grant recipients who will not meet the 90-day reporting period
           request an extension before the award period ends,
       c.	 work with NTIA to develop procedures to address unused supplies with an
           aggregate value of greater than $5,000, and

       d.	 implement a procedure to ensure that adequate grants funds are available to cover
           the cost of required financial and compliance audit reports.

   2.	 The NIST grants office to update its standard operating procedures to include (a) a
       process for recovering unspent advances and (b) a record-retention requirement in the
       body of the SOP.

   3.	 NOAA to update its closeout procedures to include the following requirements:
       a.	 Real Property Status Report (SF-429),
       b.	 Tangible Personal Property Report (SF-428),
       c.	 Financial Status Report (SF-269) and Outlay Report and Request for Reimbursement
           for Construction Programs (SF-271) for BTOP grants with a construction
           component,
       d.	 audit report requirements,
       e.	 Uniform Commercial Code-1 filing requirement, where applicable, and
       f.	 notification to recipients 30 days prior to award end.

   4.	 NTIA to remind all federal program officers to follow the predefined process for guiding
       grant recipients through closeout—which could be accomplished through staff training,
       webinars, or a memorandum to staff reminding them of their responsibility to follow
       procedures.

Summary of Agency Response and OIG Comments

In responding to our draft memorandum, NTIA, NOAA, and NIST provided separate responses
acknowledging our recommendations, and described the steps they have taken and are taking
to address them.

NTIA stated that they will consult with NIST and NOAA to ensure all required documentation
is obtained and reviewed before closing out awards; develop recipient guidance and internal


                                               10
procedures for the disposition of unused supplies with an aggregate value greater than $5,000;
offer assistance to NIST in implementing revisions to its SOP; and continue with training efforts
to ensure that Federal Program Officers uniformly implement established closeout procedures.

NIST concurred with our findings and is revising its closeout SOP.

NOAA has updated its closeout procedures and included them in Grants Management Division
Alert no. 2014-001. NOAA also provided explanations for the five CCI grants that were not
compliant with the closeout process.

We acknowledge that NTIA, NIST, and NOAA have dedicated significant efforts to
strengthening closeout procedures and look forward to the action plan that NTIA will submit
to respond to the memorandum.

We would like to express our thanks to the NTIA, NOAA, and NIST staff for courtesies
shown to us during our audit. Please direct any questions regarding this audit to Chris Rose,
Senior Auditor, Recovery Act Task Force, at (202) 482-5558 or crose@oig.doc.gov, and refer
to the memorandum title in all correspondence.

cc:	   Anthony Wilhelm, Chief of Staff, Office of the Assistant Secretary, NTIA
       Aimee Meacham, Director, Program Services, BTOP, NTIA
       Kathy Smith, Chief Counsel, NTIA
       Mack Cato, Director, NOAA Audits Office and Audit Liaison
       Arlene Simpson-Porter, Division Director, NOAA Acquisition and Grants Office
       Cecelia Royster, Division Chief, NIST Grants and Agreements Management Division
       Milton Brown, Audit Liaison, NTIA
       David Swanson, Audit Liaison, NIST




                                               11
Appendix A: Objectives, Scope, and Methodology

The objectives of our audit were to evaluate whether grant project closeout policies and
procedures established for BTOP were adequate to effectively administer closeout activities,
and assess if closeout procedures were being followed as BTOP grants are closed.

To accomplish our audit objectives, we
      interviewed NTIA program and NOAA and NIST grants officers;
      identified and reviewed NTIA and grants offices closeout procedures;
      identified training and guidance NTIA has provided to recipients on closeouts;
      reviewed grant files, including recipient-submitted closeout documentation and the
       closeout process for a sample of BTOP grants; and

      reviewed NTIA presentation materials regarding closeout.


We reviewed the following laws, regulations, and policies:
      Department of Commerce Financial Assistance Standard Terms and Conditions
      Department of Commerce Grants and Cooperative Agreements Manual
      15 Code of Federal Regulations (CFR), Part 14
      15 CFR, Part 24
      Notice of Funds Availability 1and 2
      BTOP Recipient Handbook
      BTOP Federal Program Officer Handbook: Grant Monitoring Procedures
      NIST Grants and Agreements Management Division, Standard Operating Procedures
       00-02A

      NOAA Grants Management Division Alert 2012-02

      NTIA Award Closeout Notification Package


We reviewed internal controls significant within the context of the audit objective by
interviewing NTIA officials and NOAA and NIST grants officers, examining policies and
procedures, and reviewing documentation for evidence of internal controls. We found that
corrective actions are needed to improve internal controls. These issues are discussed in the
findings of this report.

To satisfy our audit objectives, we did not rely on computer-processed data. Instead, we
reviewed documentation submitted by grant recipients; therefore, we did not test the reliability
of information technology systems.




                                               12
The audit was conducted at various bureau locations in March–May 2013 under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated April 26, 2013. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                              13
Appendix B

   Table B-1. Targeted Completion Date for BTOP Projects as of July 8, 2013a
    Expirationb                         Award Value ($)          CCI       SBA       PCC       Total
    January 2012                                895,482             0         0         1         1
    March 2012                                  536,737             0         0         1         1
    June 2012                                   176,400             0         0         1         1
    August 2012                                 535,308             1         0         0         1
    September 2012                             2,462,975            0         1         0         1
    November 2012                            56,624,948             2         0         2         4
    December 2012                            23,594,509             2         1         3         6
    January 2013                             92,664,518           10          1         5        16
    February 2013                            28,355,775             2         2         3         7
    March 2013                               14,331,982             1         1         2         4
    May 2013                                 13,401,096             1         0         0         1
    June 2013                               267,653,230           11          1         6        18
    July 2013                              1,178,947,669          37          8       12         57
    August 2013                             708,816,236           16         12       10         38
    September 2013                         1,202,213,188          29         16       18         63
    December 2013                            91,791,956             2         0         1         3
    January 2014                             45,445,444             1         0         0         1
    August 2014                                9,002,788            1         0         0         1
                          TOTAL          $3,737,450,241           116        43       65       224c

   Source: NTIA
   a
     Updated information received from NTIA on September 16, 2013, reports that 43 grants representing
   approximately $1.5 billion will extend beyond September 30, 2013. This includes 24 grants to be
   completed October through December 2013, 15 grants to be completed in 2014 and 4 grants to be
   completed in 2015.
   b
     Expiration dates include approved extensions as of July 8, 2013.
   c
     Recipients are authorized to request post-September 30, 2013, end dates per the Office of
   Management and Budget’s approval of the Department’s programmatic waiver request.




                                                   14
Appendix C: Agency Responses




                               15

       b. Req11ite that all grant recipi~nrs ,.,,,., n1UJ 11ot n1eet tfte 90-dlly reporting period request
          an 4!.'l:te11si0Jt he/ore the award period e.11ds

NTJ.I\ believes dlat NIST and NOAt\ are already \\·orking to address I.his rccom1nendation by
i1nple!uenti11g intern.al procedural changes and through their di.J~I interaction v,rith the OlG.
1-\ dditionally, NTIA \viii continue to work directly with recipients to ensure that aH
docurneotation is sub1nitted in a tin1ety ntanner, with the goat of 1uinimi.zing the nun1ber of
recipients that need to requesr an extension of the close.out pel'iod.

       c. 11'ork with NT/A to develop proce.durel· to at/1/ress ~·11pplies 1vitlt '"' t1ggregate vallu: (Jj
          greater tlian $5,000

NTIA is developing recipient guidance and inlcrnul procedures for the disp0sicion or unused
supplies ,vjth an aggregate value of grcalc·r than $5,000. NTIA will finalize this guidance after
consulting \vilh NOAA, NIST, ·and the Dcparunenfs federal .<\ssistance Law Division.

Reco111mt.11dtllit>t1 2: Ditect Ille NIST grants office to update its staudartl opera1;11g p;ocedu/'es
10 l11~llule {ll) a pt'bC.eiSfi>r rtCt>••erit1g unspe111 atb=ance.t i111d (b) a record~te1e11tiott
req11iren1eut iu the body ~f tire SOP

N'r lA believes that this issue should be resolved through NJST's direct interaction \\1th dle OIG.
NTfA \\1ill, however, raise 1hi.$ is.sue with 1h~ NIST grants office and offer consuhation iil
icnplementing tl1ese revisions.


Rec.01n1t1e11tlation 3: Direct NOAA to update ifs closeout proce1/11rcs to include requirelfttu1ts
related to 11111/its, ta11gihle p~rsou11l proPert}' doc.11111entotion, a11d reporting doc11111e11talio11 for
co1t.rtru~t/011 1nvards


As previously 1nentioned, NTIA expects that NOAA ·s direct interaction \vith the OIG \viii
resolve the issue. N'f (1-\ believes that NO/\ A has a11·eady taken steps to address ihe OJG's
concern.'>. As detailed in irs response to the Draft Mcnlorandu1n, NO/v\ adjusted the autonuuic
notices distributed by Grants ()nline as a recipien.t approaches a\vard closeout, addressing a
nurnl)e.r of the issues raised by ll1e OJG 1• NOA.A.,s Grants 't>.1anag.ement Division Alert 2014-001
fUrthet addresses the OIG's reco1nmendatio11 by i:erninding the division and B1'0J> Grants
Specialists of their responsibilities.2



1
    N::ui0«1at Oceanic and A111'10$pheric Adminisu-adon, Respoose 1(> Draft Me.ino:anduin - Cl<».eour Pr<>eednres Need
Strcng,thcttil)g for 1hc Broadb:md l'cchno!ogy Opponuni1ies Program (Oc1. 22, 20 13).
~ N1t1Jout1l Oceanic and Atn1osphtric Adminlstr~liOn, Or:inl!S /l.1 itnagern~u Oivision Afert #2014·001 (Oct. 2.2. 2.()13).


                                                            2




                                                            16

17

18

19

20

21

22

23

NOAA Grants Management Division Response:

As noted above, NOAA has developed BTOP specific closeout procedures, which includes the
Tangible Personal Property Report (SF-428, B, S) and Real Personal Property Status Report (SF-
429) requirement. Specifically stating the following required action(s) the Recipient must take

       •   Tangible Personal Property Report (SF-428,B, S);
              o Recipients must account for BTOP-funded equipment. This includes all
                  equipment purchased at a cost of $5,000 or greater and unused residual
                  supplies valued at $5,000 or more. Items with a current fair market value of
                  $5,000 or more must be listed on attached B of the SF-428.

       •   Real Personal Property Status Report (SF-429);
              o Recipients must account for BTOP-funded real property. This includes all
                  property acquired or improved under the BTOP award. If no real property has
                  been acquired or improved using BTOP funds, the recipient should indicate
                  this in the comments section of the SF-429.

Nine of the 11 (82 percent) reviewed grants exceeded the 90-day document submission
period without receiving an approved extension of that period.

Federal requirements allow grant recipients 90 days from the award end date to submit all
required closeout documentation (15 Cl'R, sections 14.71 (a) and 24.50(b)). Extensions must be
approved and document the reason for the delay. The lack of documented approval for an
extension in nine instances demonstrates that the grants office should be more involved in
ensuring recipient adherence to federal requirements in the closeout process. This raises the
concerns that other federal requirements may not be met.

NOAA Grants Management Division Response:

NOAA administered five of the nine identified grants. Table 2 of the draft memorandum shows
that four of the five CCI grants were not compliant with the Closeout Process. For the four out
of five grants, the SF-428, SF-429 and UCC-1 forms took much longer to complete than had
been anticipated. Many of these required forms for closeout had to be returned for corrections.

Additionally, the NOAA Grants Management Division learned that Grants Online wouldn't
permit an extension to the closeout for awards that were de-obligated. As a result, the NOAA
Grants Management Division and NTIA reformed the Recipient Closeout Webinars to emphasis
more on filing correct Closeout documentation.

Moreover, please see below for specificities on the issues encountered for each identified CCI
award:




                                                4




                                                24

25

26

27

City of Williamstown, KY (NT!OBIX5570058) was the first BTOP CCI award to close. The
Williamstown grant experienced several technical issues that NOAA, NTIA, NIST and Grants
Online did not anticipate. These issues led to the creation of several adjustments to closeout
procedure that are now used to close the remaining grants.

Letters notifying recipients of the required closeout documentation were not sent out 30
days before the award end date.

NOAA sends neither a 30-day notification (a reminder notifying the recipient that their grant
period is about to expire) nor a list of required documentation necessary to close the award.
NOAA stated that, instead of sending out the notification package, it relies on the federal
program officer's notifications and system-generated notifications sent to the recipients after the
end of their award period. These notifications inform the recipient of due dates for the Federal
Financial report (SF-425) and Performance Progress report, which are among the documents that
BTOP grant recipients are required to submit before closeout. The system-generated notifications
do not address any other required documentation. The 30-day notice facilitates the timely closing
of BTOP grants by providing a comprehensive list ofrequired documents. Omitting the 30-day
notice may delay grant closeout.

NOAA Grants Management Division Response:

Currently the NOAA Grants Online System sends an automatic advance notice of all Final
Reports due 45 days before and then 15 days before the due date.

The NOAA Grants Management Division has composed and implemented an email notification
template that list all required closeout documents and provides a direct link to retrieval of each.
The email notification template will be used for all BTOP awards due to expire after October l,
2013.

Additionally, the NOAA Grants Management Division will work with Grants Online to establish
a 30 day notification. Due to coding changes that will have to go into Production, this update will
be implemented in December 2014.


Thank you again for the opportunity to respond to the Office oflnspector General (OIG) draft
memorandum. If you have any questions, please contact Ms. Tracy Jackson at 301-628-1323 or
email at tracy.jackson@poaa.gov.




                                                 8




                                                  28

